U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 20, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Delmar L. Hardy v. United States of America,
S.CtNo. 19-139

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 24,
2019, and placed on the docket on July 30, 2019. The government's response is due on August
29, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 30, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0 139
HARDY, DELMAR L.
USA

LACEY STRACHAN
HOCHMAN, SALKIN, TOSCHER, PEREZ, P.C.
9150 WILSHIRE BOULEVARD
SUITE 300
BEVERLY HILLS, CA 90212
310-281-3200
STRACHAN@TAXLITIGATOR.COM

